OIG Investigative Reports, COUCH, Larry Duane (May 21, 2008)
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Reports
For Release:   May 21, 2008
U.S. Department of Justice
SHELDON J. SPERLING
United States Attorney
Eastern District of Oklahoma
1200 W. Okmulgee
Suite 201
Muskogee, Oklahoma 74401-6848
Telephone: (918) 684-5100
Fax: (918) 684-5130
Toll Free: (800) 659-7913
MUSKOGEE, OKLAHOMA ― Sheldon J. Sperling, United States Attorney for the Eastern District of Oklahoma, announced the filing of a felony Information against Larry Duane Couch, age 55, of Vian, Oklahoma.  “The three-count Information charges the defendant with Embezzlement of Government Funds, and Making and Subscribing a False Tax Return,” U.S. Attorney Sperling reported.  “The Information also seeks forfeiture of $979,000.00.”
“Count One of the Information alleges that the defendant, while Superintendent of the Marble City School District, embezzled and converted to his own use, property over the value of $5,000.00.  The embezzled money was under the care of the Marble City School District, which received more than $10,000.00 in federal funding,” U.S. Attorney Sperling said.
“Count Two alleges that the defendant, a resident of the Eastern District of Oklahoma, subscribed a 1040 United States Individual Income Tax Return, under penalties of perjury, which return was false.  Count Two covers the tax year of 2003.  During that tax year, the defendant claimed an adjusted gross income of $24,062.00.  His adjusted gross income was actually $142,312.00.”
“Count Three is a forfeiture charge.  The United States seeks forfeiture of $979,000.00, representing the amount of the proceeds the defendant obtained as the result of the offense of embezzlement of government funds.”
“I have assigned First Assistant United States Attorney Douglas A. Horn and Assistant United States Attorney Rob Wallace to this case,” continued U.S. Attorney Sperling.  “Doug and Rob have deftly shepherded this matter.”
“The Federal Bureau of Investigation and Internal Revenue Service – Criminal Investigation Division spearheaded the federal inquiry.  We worked closely with District Attorney Jerry Moore to facilitate what we anticipate will be an appropriate resolution of this sorry episode.”
“The forfeiture count entitles the United States to seize any property, real or personal, which constitutes or is derived from proceeds traceable to the offense.”
“Count One is punishable by imprisonment not to exceed ten (10) years, a fine not to exceed $250,000.00, and a supervised release term of up to three (3) years.  Count Two is imprisonable for a period not to exceed three (3) years, and a fine of not more than $250,000.00.”
“The forfeiture count also has included the administrative forfeiture of a 1999 GMC Light Duty Van, a check in the amount of $10,408.00 from the Teacher’s Retirement System, a check in the amount of $3,600.68 from a livestock sale, and the following farm equipment:  a hay rake, a hay baler, round baler, and Massey Ferguson tractor.”
“ signed plea agreement also provides that the United States may seize properties until the total amount of the criminal forfeiture, $979,000.00, is completely satisfied.  The United States is further entitled to these assets to cover the costs of prosecution of $109,948.41,” noted U.S. Attorney Sperling.
“Properties to be forfeited include four real property holdings located in Sequoyah County, $100,000.00 held in an attorney trust account on behalf of the defendant, and approximately 250 acres near Tenkiller Lake, where the defendant is currently residing.”
“I expect that a plea hearing will soon be set in the United States District Court for the Eastern District of Oklahoma,” concluded U.S. Attorney Sperling.
Top
Printable view
Share this page
Last Modified: 06/04/2008
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov